PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify that on
the 25th day of February, 2021, three (3) copies of the Brief Amici Curiae of Concerned
Women for America, et al., supporting the Petitioners in No. 19-251, Americans for
Prosperity Foundation v. Xavier Becerra, Attorney General of California; and No. 19255, Thomas More Law Center v. Xavier Becerra, Attorney General of California, were
served by first-class mail, postage pre-paid, on the following:
Derek L. Shaffer
Counsel of Record for Petitioner, Americans for Prosperity Foundation
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
John J. Bursch
Counsel of Record for Petitioner, Thomas More Law Center
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
Counsel for Respondent
Aimee Athena Feinberg
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

